August 23, 2021
Via Filing and Messenger
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Belmora LLC, et al. v. Bayer Consumer Care AG, et al., No. 21-195

Dear Mr. Harris:
I represent the respondents in the above-captioned matter. I write to request a 30-day
extension of time to file the respondents’ brief in opposition to the petition for certiorari, so that
the deadline for respondents’ briefing would be October 11, 2021.
Petitioner has agreed to the foregoing extension. The requested extension is appropriate
because counsel for respondents have numerous deadlines in other matters, including petitioner’s
merits brief and joint appendix in CVS Pharmacy, Inc. v. Doe, in this Court, No. 20-1374, due
September 3, 2021; and respondent’s brief in Badgerow v. Walters, also in this Court, No. 201143, due September 10, 2021.
Should you need any additional information, please do not hesitate to let us know.
Yours sincerely,
/s/
Lisa S. Blatt

Cc: Lawrence Ebner, Counsel for Belmora LLC and Jamie Belcastro
Counsel for Petitioners

